Review of Medicare Payments for Beneficiaries with Institutional Status - Group Health Plan, Earth City, Missouri, (A-05-01-00070)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries with Institutional Status
- Group Health Plan, Earth City, Missouri," (A-05-01-00070)
January 25, 2002
Complete
Text of Report is available in PDF format (165 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if capitation payments to Group
Health Plan (Contract H2663) were appropriate for beneficiaries reported as
institutionalized.  We determined that Group Health Plan received Medicare
overpayments totaling $11,089 for 13 beneficiaries incorrectly classified as
institutionalized.   The 13 beneficiaries were part of a statistical
sample of 100 Medicare beneficiaries, reported as institutionalized during the
period January 1, 1998 through December 31, 1999.  Based on our sample
results, we estimate that Group Health received Medicare overpayments of $98,689
for beneficiaries incorrectly reported as institutionalized.  The causes
of the overpayments include difficulties with Group Healths verification and
reporting process, incorrect information provided by nursing facilities, and
an incorrect interpretation of institutional payment regulations.